OIG Investigative Reports Press ReleaseWashington, D.C., 01/28/2013 - District Man Sentenced to Five Years in Prison, Led Failed Scheme to Deceive a Federal Judge
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF COLUMBIA
NEWS
District Man Sentenced to Five Years in Prison,
Led Failed Scheme to Deceive a Federal Judge
– Was Attempting to Obtain a $3 Million Default Judgment in Civil Lawsuit -
FOR IMMEDIATE RELEASE
Monday, January 28, 2013
For Information Contact:
Public Affairs
(202) 252-6933
http://www.justice.gov/usao/dc/index.html
WASHINGTON - David Copeland-Jackson, 40, of Washington, D.C., was sentenced today to five years in prison on federal charges in two cases, including one in which he plotted to deceive a federal judge into awarding him a $3 million default judgment in a civil lawsuit.
Copeland-Jackson, a convicted sex offender, was attempting to win the judgment in a defamation suit against one of his victims. The plot was unraveled and he never got the money.
The sentence was announced by U.S. Attorney Ronald C. Machen Jr.; Debra Evans Smith, Acting Assistant Director in Charge of the FBI's Washington Field Office; Steven Anderson, Special Agent in Charge of the Mid-Atlantic Regional Office of the Office of Inspector General, U.S. Department of Education, and Gary R. Barksdale, Inspector in Charge of the Washington Division of the U.S. Postal Inspection Service.
Copeland-Jackson pled guilty in February 2011 in the U.S. District Court for the District of Columbia to a charge of conspiracy to commit obstruction of justice and perjury for attempting to carry out the ruse. In a separate, unrelated scheme that involved $62,440 in student financial aid, Copeland-Jackson pled guilty to mail fraud.
The Honorable Judge Richard J. Leon sentenced Copeland-Jackson in both cases. Upon completion of his prison term, Copeland-Jackson will be placed on three years of supervised release. He also was ordered to pay $62,440 in restitution and forfeiture.
Copeland-Jackson has been detained since July 9, 2009, when he was arrested on the conspiracy charge. That matter was investigated by the FBI's Washington Field Office.
Peter J. Brandel Sr., 74, of Mansfield, Ohio, and Copeland-Jackson's co-conspirator in the obstruction-of-justice scheme, also has pleaded guilty to conspiracy to commit obstruction of justice and perjury.  He is awaiting sentencing by Judge Leon.
According to the Statement of Offense filed by the U.S. Attorney's Office with the Court, Copeland-Jackson was convicted in Ohio in 2000 on charges of gross sexual imposition against two 14-year-olds.  After serving three years in an Ohio prison for the offense, Copeland-Jackson was paroled to his hometown, Washington, D.C., and ordered not to have any contact with the victims of his earlier crimes.
However, while on parole, in June 2007 Copeland-Jackson filed a $3 million defamation suit in the U.S. District Court for the District of Columbia against one of the two victims, a male identified in the Statement of Offense only as "J.C."
The lawsuit was assigned to U.S. District Judge Ellen S. Huvelle.  Rather than serve J.C. with a copy of the lawsuit, as required, Copeland-Jackson filed a false affidavit with Judge Huvelle. The affidavit - signed by Brandel - claimed that J.C. had been served with the suit. Without J.C.'s knowledge, for more than a month, Copeland-Jackson then filed numerous pleadings for himself, as plaintiff, and for J.C., as defendant, in the case.
On Aug. 8, 2007, Judge Huvelle awarded a $3 million default judgment against J.C. to Copeland-Jackson. The judge took this action after receiving a document, purportedly from J.C., in which J.C. admitted the allegations in the lawsuit and consented to the judgment.
Judge Huvelle was unaware that Copeland-Jackson had gone to prison in Ohio for the very acts that were the supposed subject of the defamation lawsuit. The Ashland County prosecutor in Ohio subsequently alerted the judge that Copeland-Jackson was on parole for having molested J.C. when he was a minor. At that point, Judge Huvelle immediately vacated the default judgment and set a hearing on the matter for Aug. 16, 2007.
According to the Statement of Offense, at the hearing, Brandel testified falsely under oath that he had served a copy of the Copeland-Jackson lawsuit on J.C.
The mail fraud scheme took place between 2005 and 2009. Copeland-Jackson fraudulently obtained $62,440 in federal student financial aid by enrolling three relatives and five former inmates in college courses at online universities and then collecting their student aid checks. That case was investigated by the Office of Inspector General, U.S. Department of Education, and the Washington Division of the U.S. Postal Inspection Service.
Copeland-Jackson falsified certain material information about the individuals purportedly entitled to the financial aid. He falsely listed his own address as that of the phony student, thus causing the student aid checks to be mailed directly to his apartment in the District of Columbia.
In announcing the sentence, U.S. Attorney Machen, Acting Assistant Director in Charge Smith, Special Agent in Charge Anderson and Inspector in Charge Barksdale commended the Special Agents and Postal Inspectors who investigated the cases.
They also praised those who worked on the matters from the U.S. Attorney's Office, including Legal Assistant Jamasee Lucas, Paralegal Specialists Diane Hayes and Tasha Harris and former Paralegal Specialist Mary Treanor. Finally, they acknowledged the work of former Assistant U.S. Attorney James A. Mitzelfeld, who investigated and obtained an indictment in the case, and Assistant U.S. Attorney Jonathan Haray, who prosecuted the case.
13-029
Top
Printable view
Last Modified: 01/29/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov